1
JURISDICTION
STATE OF NEW YORK COURT OF APPEALS
Decided and Entered on the
fourth day of October, 2019
Present, Hon. Janet DiFiore, Chief Judge, Presiding.
The Church of Jesus Christ of Latter
-Day Saints, Servant, &c.,
Appellant,
v.
Michael P. Kelly, et al.,
Respondents,
The Church of Jesus Christ of Latter- Day Saints,
Servant, &c.,
Appellant,
v.
Christopher J. Baum & Thomas Bailey, et al.,
Respondents,
Sixty (60) days having passed since appellant's
taking of an appeal, and appellant's papers not having
been filed pursuant to section 500.12 of this Court's
Rules of Practice, it is
ORDERED, that the appeal to this Court is
dismissed for want of prosecution.
John P. Asiello
John P. Asiello
Clerk of the Court

Al
STATE OF NEW YORK COURT OF APPEALS
Clerk's Office
John P. Asiello
20 Eagle Street
Chief Clerk and
Legal Counsel to the Court Albany, NY 12207-1095
August 5, 2019
Mr. Xiu Jian Sun
54-25 153rd Street
Flushing, NY 11355
Re: Sun v. Kelly; Sun v Baum
Dear Mr. Sun:
This letter acknowledges receipt of your
preliminary appeal statements, which include notices
of appeal to the Court of Appeals dated July 24, 2019,
both of which relate to the same order of the Appellate
Division, First Department, dated July 11, 2019. A
notice of appeal is not filed in the Court of Appeals.
CPLR 5515(1) provides that lain appeal shall be taken
by serving on the adverse party a notice of appeal and
filing it in the office where the judgment or order of the
court of original instance is entered." This Court has no
basis upon which to determine that your notices of
appeal have been so filed and served. If your matter
originated in Supreme Court, Bronx County, your
notice of appeal should be filed with the Bronx County

A2

Clerk's Office, 851 Grand Concourse, Bronx, NY I 0451.
If your matter originated in Supreme Court, New York
County, your notice of appeal should be filed with the
New York County Clerk's Office, 60 Centre Street, New
York, NY 10007.
No action will be taken on your preliminary appeal
statements until you provide proof that your notices of
appeal have been so filed and served.
You may direct questions to Margaret Wood at
518-455-7702 or Edward Ohanian at 518-455-7701..

Very truly yours,
John P. Asiello
John P. Asiello
JPA/EO/ni
Encs
cc: Christopher J. Baum, Esq.
Michael P. Kelly, Esq.

B1
Friedman, J.P., Richter, Tom, Oing, Moulton, JJ.
9867-9868
The Church of Jesus Christ of Latter-Day Saints, etc.,
Plaintiff-Appellant,
-againstMichael P. Kelly, et al.,
Index 301088/17
Defendants-Respondents. 100946/17

The Church of Jesus Christ of Latter-Day Saints, etc.,
Plaintiff-Appellant,
-againstChristopher J. Baum & Thomas Bailey, et al.,
Defendants-Respondents.

Xiu Jian Sun, appellant pro se.
Order, Supreme Court, Bronx County (Donna Mills,
J.), entered on or about May 1, 2018, which granted
defendants' motion to dismiss the complaint,
unanimously affirmed, without costs. Order, Supreme
Court, New York County (Gerald. Lebovits, J.), entered
April 30, 2018, which sua sponte dismissed the
complaint, unanimously affirmed, without costs.

B2

Construing the pleadings liberally, accepting all
the facts alleged in the complaints to be true and
according plaintiff the benefit of every possible
favorable inference (see generally Leon v Martinez, 84
NY2d 83, 87-88 [1994]), there are simply no causes 35
of action against defendants that are discernible from
the complaints.
THIS CONSTITUTES THE DECISION AND
ORDER OF THE SUPREME COURT, APPELLATE
DIVISION, FIRST DEPARTMENT.
ENTERED: JULY 11, 2019
Susanna Rojas
CLERK

C1
Page 6 of 8
301088/2017 Notice of Appeal
301088/2017 Short form Order Dated 04/23/2018
Page 1 of 142
New York Supreme Court-Country Bronx
PART 09
Case Disposed
CHURCH OF JESUS CHRIST Settle Order
Schedule Appearance
-againstIndex No: 301088-2017
KELLY, MICHAEL P.
Hon. Donna Mills,
Justice Supreme Court
Read on this
The following papers numbered I do
motion, DISMISSAL
Notice on April, 06 2018 and duly submitted as No.
on the Motion Calendar of
Paper Number
Notice of Motion Order to Show Cause —
Exhibits & Affidavits Annexed
Answering Affidavits & Exhibits
Replying Affidavits & Exhibits
Affidavits & Exhibits
Pleading - Exhibit
Stipulation(s) -Referee's Report — Minutes
Filled Papers
Memoranda of Law
Upon the foregoing papers this

C2
Defendants move to dismiss pursuant to CPLR
33013, 3014 & 3211 (a)(7). Defendants' motion to
dismiss is granted. Plaintiff, who appears to be Xiu
Jian Sun (appearing pro-se) names the law firm
Marshall Dennehey Warner Coleman & Goggin,
several of its counsel (defendants Connor, Evangelista
& Kelly) & a shareholder (defendant/ Counsel Gura)
setting forth a series of unintelligible statements,
portions of which appear to be in a defendant language,
and other non-consecutive paragraphs that do not state
any cognizable claim for relief. Plaintiffs opposition to
the motion is similarly unintelligible. It is axiomatic
that a Plaintiff must adhere to the pleading rules set
forth in the CPLR, which require that Pleadings be set
out in plain and concise statements in consecutively
numbered paragraphs and be sufficiently particular to
give the court and parties notice of the material
elements of each cause of action. In this case, even the
most liberal construction of the pleadings could not
sustain this action. Joffe v Rubensiein. 24 A.D.2d 752,
263 N.Y.S.2d867, 1965 N.Y. App. Div. LEXIS 3168 (N.Y.
App. Div. 1st Dep, 1965), app. Dismissed, 21 N.Y.2d 721,
287 N.Y.S.2d 685, 234 N.E.2d 706, 1968 N.Y. LEXIS
1686 (N.Y. 1986). Defendants' other requests for relief
are denied it this time..
The constitutes the Decision & Order of this Court
Dated: 04/23/2018
Hon. Donna Mills,
Donna. Mills, J.S.C.

